USCA4 Appeal: 19-1266

Doc: 22

Filed: 10/29/2019

Pg: 1 of 1

FILED: October 29,2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1266
(8:16-cv-0313 8-TMC)

NIKOLE MARIE HUNTER; ANDREW BENEDICT WEBER
Plaintiffs - Appellants
v.

GOVERNMENT EMPLOYEES INSURANCE COMPANY
Defendant - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Harris, Judge Rushing, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk
/

'A

* *

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
U
No. 19-1266
NIKOLE MARIE HUNTER; ANDREW BENEDICT WEBER,
Plaintiffs - Appellants,
v.
GOVERNMENT EMPLOYEES INSURANCE COMPANY,
Defendant - Appellee.

Appeal from the United States District Court for the District of South Carolina, at
Anderson. Timothy M. Cain, District Judge. (8:16-cv-03138-TMC)
Submitted: September 11, 2019

Decided: September 27, 2019

Before HARRIS and RUSHING, Circuit Judges, and TRAXLER, Senior Circuit Judge.
Affirmed in part, vacated in part, and remanded by unpublished per curiam opinion.
Nikole Marie Hunter; Andrew Benedict Weber, Appellants Pro Se. David L. Moore, Jr.,
TURNER, PADGET, GRAHAM & LANEY, PA, Greenville, South Carolina, for
Appellee.
Unpublished opinions are not binding precedent in this circuit.

/

AffEWM* 5

A

4
PER CURIAM:
Nikole Marie Hunter and Andrew Benedict Weber appeal the district court’s order
granting Appellee’s motion for summary judgment on their civil action arising out of an
insurance dispute. Because the amended complaint did not allege any redressable injury
suffered by Weber, we conclude that Weber lacked standing in the district court. See
Hollingsworth v. Perry, 570 U.S. 693, 704 (2013). Thus, although we grant Appellants’
application to proceed in forma pauperis, we, vacate the district court’s order as to Weber
and remand with instructions to dismiss this part of the amended complaint for lack of

s

jurisdiction. Id. at 715. Turning to Hunter, we have reviewed the record and find no
reversible Crror. Accordingly, we affirm the district court’s order as to Hunter. We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED IN PART,
VACATED IN PART,
AND REMANDED

APPENDIX 'f>2
2

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION

Nikole Marie Hunter and Andrew Benedict )
)
Weber,
)

Plaintiffs,

)
)
)

v.

)
)

Government Employees Insurance
Company,

Case No. 8:16-CV-3138-TMC
ORDER

)
)
)
)

Defendant.

)

Plaintiff Nikole Marie Hunter (“Hunter”) and her husband, Plaintiff Andrew
Benedict Weber (“Weber”), brought this action against Defendant Government
Employees Insurance Company (“GEICO”) asserting causes of action for breach of
insurance contract, bad faith claims handling, and “Bad Faith Litigation—
Withholding of Service of Process evidence.” (ECF No. 35 at 4). GEICO moved
for summary judgment as to each claim pursuant to Rule 56 of the Federal Rules of
Civil Procedure. (ECF Nos. 51 and 51 -1).1 For the reasons set forth below, the court
grants summary judgment in favor of GEICO as to each of Plaintiffs’ claims.

1 GEICO also contends that Plaintiff Weber lacks standing to assert the claims set
forth in the amended complaint. (ECF No. 51-1 at 2-3). In light of the court’s

I. Background
On April 20, 2012, Hunter sustained injuries from a motor vehicle accident
for which she was not at fault. Hunter was the driver and sole occupant of her
vehicle. (ECF No. 51-2). The insurance carrier for the at-fault driver was State
Farm Mutual Automobile Insurance Company (“State Farm”).

Following the

accident, State Farm paid Hunter the policy limits of $25,000. (ECF No. 51-1 at 1).
Hunter’s vehicle was insured under Policy Number 4194-73-98-86 (“the
Policy”), which was issued to Plaintiffs by GEICO and included underinsured
motorist (UIM) coverage in the amount of $25,000. (ECF No. 51 -9 at 1). The parties
agree that because Plaintiffs insured two vehicles under the policy, South Carolina
law permitted Hunter to stack the UIM coverage for each vehicle for a total of
$50,000 in UIM benefits under the Policy. (ECF No. 51-3 at 14). In November
2014, Hunter and Weber demanded that GEICO pay the UIM policy limits of
$50,000. (ECF No. 59-6). GEICO declined to do so but offered to pay $19,000 in
UIM benefits based on its internal evaluation of Hunter’s claim. (ECF No. 59-7).
In December 2014, Plaintiffs filed a complaint in South Carolina state court
against Ashley Thomley, a GEICO claims adjuster who was assigned to Hunter’s
case, alleging bad faith and improper claims practices. (ECF No. 51-7). Weber,

disposition of this motion, however, the court declines to address GEICO’s standing
argument.
2

who is not a licensed attorney, filed the action not only on his own behalf but also
on behalf of Hunter as her de facto attorney. (ECF No. 51-7 at 6). The action was
dismissed in February 2015, as Thomley, an individual GEICO employee, was not
a party to the insurance contract between GEICO and Plaintiffs. (ECF No. 59-23).
Shortly thereafter, Hunter, through legal counsel, filed another complaint in
South Carolina state court against Thomley and Pace Bailey, another GEICO
employee assigned to evaluate Hunter’s case. The complaint sought relief against
Thomley and Bailey individually for breach of the implied covenant of good faith
and fair dealing that arose under the policy. The 2015 state case was removed to this
court, and Thomley and Bailey filed a motion to dismiss. This court dismissed the
action, concluding that South Carolina law did not permit Hunter to maintain a cause
of action for bad faith refiisal to pay benefits against individual GEICO employees
who were not parties to the insurance contract. Hunter v. Thomley, 8:15-cv-2929TMC, ECF No. 45 (D.S.C. March 21, 2016).
On March 27, 2015, Hunter, proceeding pro se, filed a negligence action in
South Carolina state court against the alleged at-fault driver. (ECF No. 51-4).
Notice of this action was served on GEICO as the UIM carrier. (ECF No. 59-23).
Weber did not participate as a party in this action or assert any claims against the atfault driver.

3

GEICO tendered the $50,000 limits of UIM coverage, and Hunter and Weber
executed a “Policy Release” that released GEICO from all claims to UIM benefits
under the Policy arising from injuries sustained by Hunter in the April 20, 2012,
accident (ECF No. 51-5).
In July 2016, Plaintiffs filed the instant action against GEICO in South
Carolina state court, alleging that GEICO (1) breached the terms of the insurance
policy and (2) acted in bad faith and engaged in unreasonable claims handling by
not tendering the full UIM policy limits sooner and failing to explain why it initially
offered less than the full UIM limits. (ECF No. 1-1). After the case was removed
to federal court, Plaintiffs amended the complaint to add a third cause of action styled
“Bad Faith Litigation—Withholding of Service of Process evidence,” (ECF No. 35
at 4-7), apparently based on litigation events in Hunter’s previous bad faith action
against the individual claims handlers that this court dismissed for failure to state a
viable claim. See Hunter v. Thomley, 8:15-cv-2929-TMC, ECF No. 45 (D.S.C.
March 21, 2016).
GEICO moved for summary judgment (ECF No. 51). Plaintiffs filed a brief
in opposition to summary judgment (ECF No. 59), and GEICO filed a brief in reply
(ECF No. 61). The matter is now ripe for review. The court concludes that a hearing
is unnecessary in this matter.
II. Legal Standard
4

Summary judgment is appropriate if a party “shows that there is no genuine
dispute as to any material fact” and that the movant is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a). The court should grant summary judgment “only
when it is clear that there is no dispute concerning either the facts of the controversy
or the inferences to be drawn from those facts.” Pulliam Inv. Co. v. Cameo Props.,
810 F.2d 1282, 1286 (4th Cir. 1987). “In determining whether a genuine issue has
been raised, the court must construe all inferences and ambiguities in favor of the
nonmoving party.” HealthSouth Rehab. Hosp. v. Am. Nat’l Red Cross, 101 F.3d
1005, 1008 (4th Cir. 1996). The party seeking summary judgment bears the initial
burden of establishing that there is no genuine issue of material fact. Celotex Corp.
v. Catrett, All U.S. 317, 323 (1986).
Once the moving party has carried this initial burden, the non-moving party,
to survive summary judgment, must “go beyond” the allegations in the pleadings.
Id. at 324. The non-moving party must instead demonstrate that specific, material
facts exist that give rise to a genuine issue. Id. Under this standard, “[cjonclusory
or speculative allegations do not suffice, nor does a mere scintilla of evidence” in
support of the non-moving party’s case. Thompson v. Potomac Elec. Power Co.,
312 F.3d 645, 649 (4th Cir. 2002) (internal quotation marks omitted).
III. Discussion
A. Breach of contract and statutory damages
5

Plaintiffs’ first cause of action is for breach of contract. Plaintiffs contend
that GEICO breached the terms of the Policy by not immediately agreeing to pay the
full UIM limits, and by delaying payment until “after counsel was retained and [a
bad faith action] was threatened.” (ECF No. 35 at 2). For this alleged breach,
Plaintiffs seek to recover damages, including attorneys’ fees under S.C. Code § 3859-40.
Under the terms of the Policy, GEICO agreed to pay damages for bodily injury
and property damage caused by an accident for which its insured—in this case
Hunter—is legally entitled to recover from the operator of an “underinsured motor
vehicle.” (ECF No. 51-9 at 3). An “underinsured motor vehicle” is defined as a
vehicle with liability insurance coverage in an amount that is “less than the amount
of the insured’s damages.” Id.
GEICO contends that when it paid the $50,000 limits of UIM coverage, it
discharged its obligations under the Policy. GEICO points out that both Plaintiff
Weber and Plaintiffs’ expert witness, Maurice Kraut, acknowledged during their
depositions that GEICO satisfied its obligation to pay UIM benefits under the Policy
and could not identify any other policy provision GEICO violated. (ECF Nos. 51-3
at 15; 51-10 at 16).2 Nonetheless, Plaintiffs argue that GEICO’s payment of the

2 Plaintiff Weber admitted that “by paying the $50,000 policy limits, there’s no
breach” of the policy by GEICO. (ECF No. 51-3 at 15). Kraut, Plaintiffs’ expert
6

UIM limits under the Policy does not absolve them of liability under S.C. Code Ann.
§ 38-59-40(1) for delaying payment without a reasonable basis for doing so. (ECF
No. 59 at 4-5).
Plaintiffs’ argument that GEICO can still be liable for bad faith despite having
fulfilled its contractual obligations by paying the UIM policy limits is a tort theory
that applies to its second cause of action. Indeed, the authority cited by Plaintiffs in
support of this argument involved tort claims, not contract claims. (ECF No. 59 at
4). As discussed below, South Carolina in fact recognizes a tort cause of action for
an insurance carrier’s bad faith in exercising duties owed to policyholders which
does not require breach of an express contractual provision as a prerequisite. See
Tadlock Painting Co. v. Maryland Cas. Co., 473 S.E.2d 52, 54 (S.C. 1996). But,
this is a claim sounding in tort, not contract.3

witness on insurance practices was likewise unable to identify any “direct
violations” of the Policy by GEICO. (ECF No. 51-10 at 16).
3 Despite its characterization as a tort, a cause of action for bad faith claims handling
or processing in South Carolina arises from the implied covenant and fair dealing in
every insurance policy. See Nichols v. State Farm Mut. Auto. Ins. Co., 306 S.E.2d
616, 618 (S.C. 1983). Therefore, to the extent Plaintiffs suggest that GEICO’s
claims practices breached the Policy’s implied covenant of good faith and fair
dealing, they are alleging a tort claim, not of a breach of contract claim that renders
relief under S.C. Code § 38-59-40 available.
7

Plaintiffs’ argument that full payment of benefits is not a defense to bad faith
conflates their first and second causes of action. Plaintiffs’ first cause of action
expressly alleges breach of contract and seeks statutory damages under S.C. Code
Ann. § 38-59-40(1) for GEICO’s alleged bad faith refusal to pay benefits. (ECF No.
35 at 2-3). That provision provides, in relevant part, as follows:
In the event of a claim, loss, or damage which is covered by a policy of
insurance ... and the refusal of the insurer... to pay the claim within
ninety days after a demand has been made by the holder of the policy .
. . and a finding on suit of the contract made by the trial judge that the
refusal was without reasonable cause or in bad faith, the insurer... is
liable to pay the holder, in addition to any sum or any amount otherwise
recoverable, all reasonable attorneys’ fees for the prosecution of the
case against the insurer....
S.C. Code Ann. § 38-59-40(1). Critically, this provision applies only to breach of
contract claims and not tort claims. See Nichols v. State Farm Mut. Auto. Ins. Co.,
306 S.E.2d 616, 620 (S.C. 1983) (holding that identical predecessor provision
“applies only to a breach of contract cause of action and is therefore inapplicable to
a tort action”), partial abrogation on separate grounds recognized by Duncan v.
Provident Mut. Life Ins. Co. of Philadelphia, ATI S.E.2d 657, 659 (S.C. 1993)
(discussing ERISA preemption); Rush v. Zurich Am. Ins. Co., No. 4:15-CV-04367RBH, 2016 WL 3913704, at *3 (D.S.C. July 20, 2016). Therefore, damages under
this provision are available only when an insurance carrier’s breach of contract has
been established. See Nichols, 306 S.E.2d at 620 (vacating award of attorneys’ fees
under S.C. Code § 38-9-320(1) (1976) where verdict against insurance carrier on
8

contract cause of action was vacated). Plaintiffs have failed to create a triable issue
of fact on its contract claim as to whether GEICO violated any of the provisions of
the contract. Thus, Plaintiffs are not entitled to recover under S.C. Code § 38-5940.
Accordingly, the court concludes that Plaintiffs have failed to raise an issue
of material fact as to their first cause of action for breach of contract and that GEICO
is therefore entitled to judgment as a matter of law on this claim.
B. Bad faith refusal to pay/Unreasonable claims handling
In their second cause of action, Plaintiffs allege that, despite having paid the
policy limits, GEICO breached its duty of good faith by, among other things,
“fail[ing] and refusing] to make an adequate investigation before withholding
benefits” under the Policy; by “unreasonably delaying payment of the Plaintiffs’
claims”; and by “failing to communicate to the Plaintiffs any reasonable
justification” for not paying the policy limits right away. (ECF No. 35 at 3-4).
South Carolina recognizes a common law tort action for an insurer's bad faith
in exercising duties owed to policyholders. Nichols, 306 S.E.2d at 619. Thus, under
South Carolina law, an insurer that unreasonably refuses to settle a claim with an
insured within policy limits is subject to liability in tort. Id. at 618. This tort is
rooted in the implied covenant of good faith and fair dealing in every insurance
contract. See id. “[Tjhere is an implied covenant of good faith and fair dealing in
9

every insurance contract that neither party will do anything to impair the other’s
rights to receive benefits under the contract.” Tadlock Painting, 473 S.E.2d at 53
(internal citations and quotation marks omitted).
The elements of an action for bad faith refusal to pay benefits under an
insurance contract include: “(1) the existence of a mutually binding contract of
insurance between the plaintiff and the defendant; (2) refusal by the insurer to pay
benefits due under the contract; (3) resulting from the insurer’s bad faith or
unreasonable action in breach of an implied covenant of good faith and fair dealing
arising on the contract; (4) causing damage to the insured.” Crossley v. State Farm
Mut. Auto. Ins. Co., 415 S.E.2d 393, 396-97 (S.C. 1992). In this case, it is
undisputed that a mutually binding insurance contract existed between GEICO and
Plaintiffs and that GEICO paid Plaintiffs the UIM limits under the Policy.
The fact that GEICO discharged its obligation to pay UIM benefits, however,
does not fully resolve the bad faith claim. Because a bad faith action lies in tort and
not in contract, a bad faith claim may exist even in the absence of any violation of
an insurance contract provision. Tadlock Painting, 473 S.E.2dat55. South Carolina
courts have made clear that “the benefits due an insured are not limited solely by
those expressly set out in the contract,” id. at 55, as “the covenant of good faith and
fair dealing extends not just to the payment of a legitimate claim, but also to the
manner in which it is processed,” Mixson, Inc. v. American Loyalty Ins. Co., 562
10

S.E.2d 659,662 (S.C. Ct. App. 2002). “p]f an insured can demonstrate bad faith or
unreasonable action by the insurer in processing a claim under their mutually binding
insurance contract, he can recover consequential damages in a tort action.” Tadlock
Painting, 473 S.E.2d at 53 (internal quotation marks omitted).
1. Unreasonable processing of Plaintiffs’ UIM demand
Plaintiffs claim that GEICO dealt with them in bad faith by unreasonably
delaying payment of the UIM policy limits after Plaintiffs first demanded them.
(ECF No. 59 at 4-5). Generally, “once a UIM insured commences a claim for
liability against the allegedly at-fault driver, the UIM insurer has a duty to act in
good faith towards the insured.” Snyder v. State Farm Mut. Auto. Ins. Co., 586 F.
Supp. 2d 453, 459 (D.S.C. 2008). Good faith, of course, typically does not require
the UIM carrier to immediately pay a claim or, for that matter, even “make a
settlement offer” at all. Id. Federal courts in this district applying South Carolina
law have only recognized one narrow instance in which good faith might require a
UIM insurance carrier to immediately settle a claim—“if it was clear that the insured
suffered damages greatly in excess of the liability limits of the at-fault party, the
insurer could not in bad faith delay or withhold benefits to which it was certain that
the insured was entitled.” Snyder, 586 F. Supp. 2d at 459 (internal quotation marks
omitted) (emphasis added). In such a case, a UIM insurance carrier’s delay in paying

11

benefits could constitute bad faith. See Myers v. State Farm Mut. Auto. Ins. Co., 950
F. Supp. 148, 151 (D.S.C. 1997); Snyder, 586 F. Supp. 2d at 459.
The court concludes that GEICO’s handling of Plaintiffs’ claims and payment
of the policy limits in May 2016 did not constitute unreasonable action on its part.
GEICO began attempts to investigate and settle Plaintiffs claims well before its duty
to act in good faith arose when Plaintiffs filed Hunter’s action against the at-fault
driver in March 2015. On November 5,2014, Plaintiffs demanded that GEICO pay
the UIM policy limits. (ECF No. 59-7). Prior to that time, GEICO made several
offers to settle the claim, eventually going as high as $19,000. (ECF No. 59-7 at
13). Moreover, “the fact that the parties ha[ve] different estimations of the value of
a claim is not, under South Carolina law, evidence of bad faith on the part of the
party offering the lower amount.” Collins v. Auto-Owners Ins. Co., 438 F. App’x
247, 249 (4th Cir. 2011). UIM carriers have the right and duty to negotiate an
insured’s claim in view of their obligation “to protect their own interests (and, by
extension, the interests of their other premium-paying customers).” Snyder, 586 F.
Supp. 2d at 458-59. Plaintiffs’ expert conceded that it is not improper for an insurer
to negotiate the value of a claim with its insured and that it is not an indication of

12

bad faith for the insurer to begin negotiations with lower offers. (ECF No. 61-1 at
3).4
Moreover, GEICO had reasonable grounds for initially offering less than the
hill UIM limits demanded by Plaintiffs before they had even filed suit against the atfault driver. On the day of the accident, Hunter went to the hospital complaining of
head and neck pain. (ECF No. 61-2 at 4). Hunter did not have broken bones or
lacerations; she was diagnosed with soft tissue injuries in the neck and shoulders and
was treated and released. Id. Hunter did not receive further medical treatment for
ten days, at which time she began complaining of lower back problems for the first
time following the accident. (ECF No. 61-2 at 6). Hunter also began complaining
of pain in her wrist that was eventually diagnosed as carpal tunnel syndrome. Id.
Finally, in June 2013, more than a year after the accident, Hunter was examined for
new symptoms related to TMJ. (ECF No. 61-2 at 7).
The timing of the initial appearance of some of Hunter’s injuries gave GEICO
a reasonable basis to question the existence of any causal connection to the accident.
Plaintiffs’ expert conceded that a substantial gap in time between an accident and
the appearance of additional symptoms is a standard, relevant consideration for

4 The court notes that negotiations may have been complicated somewhat by
Weber’s inserting himself into the process as quasi-legal advisor for Hunter. For
example, Weber kept demanding the UIM policy limits based on the “Tyger River
Doctrine,” (ECF No. 59-7 at 11 and 17), which has no application here.
13

claims adjusters with regard to the value of a claim. (ECF No. 61-2 at 5-6).
Although Plaintiffs presented a letter from the treating physician indicating that the
TMJ symptoms were related to the accident, the letter was drafted two years after he
completed treatment for Hunter’s TMJ symptoms and was provided during
Plaintiffs’ unsuccessful bad faith litigation against the individual adjusters. (ECF
No. 59-2). In light of these circumstances, GEICO had no duty to accept at face
value Plaintiffs’ assertions that all of Hunter’s medical problems were caused by the
accident and had every right to use the discovery process to examine how Hunter’s
doctors determined causation.5
Thus, because GEICO had a reasonable ground for questioning whether all of
Hunter’s medical issues were proximately caused by the accident, it did not act in
bad faith by investigating Plaintiffs’ claims and negotiating with Plaintiffs prior to
tendering the UIM policy limits. See Snyder, 586 F. Supp. 2d at 458 (noting that
“[i]f there is reasonable ground for contesting a claim, there is no bad faith”).
2. Consequential Damages
Alternatively, Plaintiffs’ claim fails as a matter of law because Plaintiffs have
not been able to show consequential damages flowing from GEICO’s alleged acts

5 Plaintiffs’ expert witness suggested that GEICO’s failure, during the process of
negotiation, to expressly set forth in writing that it did not accept all of Hunter’s
medical expenses amounted to bad faith. However, he conceded that he knew of
no treatise, publication, written industry standard or “any cases within the United
States” establishing such a duty. (ECF No. 51-10 at 12).
14

of bad faith as opposed to the underlying accident. “Damages are a critical element
of a first-party insurance bad faith action.” See Jordan v. Allstate Ins. Co., No. 4:14CV-03007-RBH, 2016 WL 4367080, at *9 (D.S.C. Aug. 16, 2016), ajf'd, 678 F.
App'x 171 (4th Cir. 2017). Plaintiffs claim consequential damages related to the
following: tooth abscesses; loss of permanent teeth; loss of self-employment acting
opportunities in television and film as a result of her missing teeth; loss of her full­
time employment and income; emotional distress;

and “anti-depressant

dependence.” (ECF No. 59 at 5-6).
To the extent that Plaintiffs seek consequential damages related to Hunter’s
bodily injuries, Plaintiffs’ claim is infirm. Consequential damages in a first-party
bad faith action must flow from the alleged acts of bad faith by the insurance carrier.
See State Farm Fire & Cos. Co. v. Barton, 897 F.2d 729, 733 (4th Cir. 1990)
(explaining that under South Carolina law insurer cannot be liable for consequential
damages unless the acts of bad faith were the proximate cause of such damages).
Hunter’s dental problems and the related expenses she incurred would have been
caused, if at all, by the accident, not GEICO’s delay in tendering the UIM policy
limits. Likewise, Plaintiffs’ claim for loss of employment and income in December
2015 was based on Hunter’s significant back pain which would flow, if at all, from
the accident, not the alleged acts of bad faith by GEICO. (ECF Nos. 59 at 6; 59-17).

15

Plaintiffs also claim emotional distress as consequential damages. (ECF No.
59 at 6). As a general matter, emotional distress damages are recoverable in an
action for bad faith under South Carolina law if the acts of bad faith are the proximate
cause of the emotional distress. See Barton, 897 F.2d at 732-33; Wright v. UNUM
Life Ins. Co., No. 2:99-2394-23, 2001 WL 34907077, at *11-12 (D.S.C. Aug. 31,
2001). In the instant case, however, Plaintiffs claim Hunter had “to leave a full time
salaried job in December 2015” which resulted in “a loss of household income” and
“further emotional distress.” (ECF No. 59 at 6). This claim is part and parcel of
Plaintiffs’ attempt to collect damages for lost employment and income as a result of
Hunter’s inability to work because of back pain. (ECF No. 59-17).6 Hunter’s
emotional distress would have been caused, if at all, by the accident, not GEICO’s
alleged acts of bad faith.
Accordingly, the court concludes that Plaintiffs have failed to raise an issue
of material fact with respect to their second cause of action for bad faith and that
GEICO is therefore entitled to judgment as a matter of law on this claim.
C. “Bad Faith Litigation - Withholding of Service of Process Evidence”
Plaintiffs’ third and final cause of action appears to arise from Plaintiff
Hunter’s prior lawsuit against the individual claims handlers that this court

6 To the extent Plaintiffs present Weber’s loss of consortium claim as consequential
damages, his claim relates to and arises from Hunter’s injuries in the accident, not
GEICO’s alleged acts of bad faith.
16

dismissed because it failed to allege a viable claim with any merit. See Hunter v.
Thomley, 8:15-cv-2929-TMC, ECF No. 45 (D.S.C. March 21, 2016). Specifically,
Plaintiffs’ allegations concern the alleged conduct in the above-referenced case of
defense counsel who is no longer involved in the instant case.7 As the basis for this
claim, Plaintiffs are complaining that counsel for the individual defendants in the
prior case—who are not parties to the instant action—did not acknowledge or accept
service of process on those defendants and made it difficult for Weber, a pro se
litigant who was also at the time representing Hunter without a license, to perfect
service. Weber attempted to personally serve the individual defendants via certified
mail by leaving a copy of the pleadings with workers in GEICO’s mailroom. (ECF
No. 35 at 5). According to Plaintiffs, defense counsel did not respond to their
requests for proof that employees in GEICO’s mailroom had the authority to
generally accept service of process on behalf of other individual employees at
GEICO. (ECF No. 59 at 4). Plaintiffs also assert that defense counsel misled them
into believing that they could perfect service by sending the pleadings to him.
Plaintiffs assert that these actions caused them to incur attorney’s fees, face litigation
delays and incur additional costs to effect service. (ECF No. 35 at 6-7).

7 Counsel for the individual defendants in Hunter v. Thomley, 8:15-cv-2929-TMC,
also began the instant action as attorney of record for GEICO but has now been
replaced by substitute counsel. (ECF No. 19).
17

The court concludes this claim is wholly without merit. To the extent that
Plaintiffs wish to address original counsel’s conduct in a previous case, they should
have done so during the prior case in which the conduct allegedly occurred.
Moreover, Plaintiffs allege that the purported bad-faith conduct was committed by
an attorney who is not before the court in the instant case on behalf of individual
employees who are not before the court as parties in the instant case. As none of the
alleged offenders are currently before the court, the court is unable to grant relief as
to this particular claim. Finally, in view of the fact that this court dismissed
Plaintiffs’ complaint in the prior case for failure to state a viable claim for relief,
Plaintiffs did not suffer prejudice from any litigation delays or other consequences
flowing from the failure to effect service of process on their first two tries.
IV. Conclusion
For the foregoing reasons, the court concludes that GEICO is entitled to
judgment as a matter of law on all of Plaintiffs’ claims. The court therefore
GRANTS GEICO’s motion for summary judgment. (ECF No. 51).
IT IS SO ORDERED.
s/ Timothy M. Cain
United States District Judge
February 19, 2019
Anderson, South Carolina

18

